Department of Homeland Security
   Ofﬁce of Inspector General

            Opportunities to Improve FEMA's 

              Disaster Closeout Process 





OIG-10-49                                       January 2010
                                                                  Office of Inspector General

                                                                   U.S. Department of Homeland Security
                                                                   Washington, DC 25028




                                   January 27, 2010

                                        Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports published as part of our oversight responsibilities to promote economy,
effectiveness, and efficiency within the department.

This report addresses opportunities to improve FEMA’s process for closing out declared
disasters and reporting on the status of recovery efforts. We contracted with the
independent public accounting firm Foxx & Company to perform the audit. The contract
required that Foxx & Company perform its audit according to generally accepted
government auditing standards. Foxx & Company identified areas where FEMA’s disaster
closeout process could be improved. The report contains seven recommendations
addressed to the Administrator, Federal Emergency Management Agency.

Foxx & Company is responsible for the attached auditor’s report, dated December 15,
2009, and the conclusions expressed in the report.

The recommendations herein have been developed with the best knowledge available to
our contractor. We hope that this report will result in more effective, efficient, and
economical operations. We express our appreciation to all who contributed to the
preparation of this report.



                                            Richard L. Skinner
                                            Inspector General
December 15, 2009

Mr. Matt Jadacki
Deputy Inspector General for Office of Emergency Management Oversight
Office of Inspector General
Department of Homeland Security
245 Murray Drive, SW, Building 410
Washington, DC 20528

Dear Mr. Jadacki:

Foxx & Company performed an audit of FEMA’s disaster closeout process. The audit
was performed according to Task Order No. TPDFIGBPA070007, dated September 30,
2008.

This report presents the results of the audit and includes recommendations to help
improve the timeliness of FEMA’s disaster closeouts and its reporting on the status of
disaster recovery activities.

Our audit was conducted according to applicable Government Auditing Standards, July
2007 revision. The audit was a performance audit as defined by Chapter 1 of the
Standards, and included a review and report of program activities with a compliance
element. We did not perform a financial audit, the purpose of which would be to render
an opinion on the agency’s financial statements.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely,

Foxx & Company



Martin W. O’Neill
Partner
Table of Contents/Abbreviations 


Executive Summary ...........................................................................................................1
 


Background ........................................................................................................................2
 


Results of Audit ..................................................................................................................6
 


     Need for Leadership in FEMA’s Disaster Closeout Process .........................................6 

     Recommendation ...........................................................................................................8
 

     Management Comments and Contractor Analysis ........................................................9 

     Opportunities to Improve the Closeout Process.............................................................9 

     Recommendations........................................................................................................14 

     Management Comments and Contractor Analysis ......................................................15
 


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................16 

     Appendix B:           Declarations and Closures, FY 1989 Through FY 2008......................18 

     Appendix C:           Disasters With Obligation Balances as of September 30, 2008...........19 

     Appendix D:           Management Comments on the Draft ..................................................20 

     Appendix E:           Report Distribution ..............................................................................22 


Abbreviations
     CFR                   Code of Federal Regulations 

     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     FOUO                  For Official Use Only 

     GAO                   Government Accountability Office 

     HMGP                  Hazard Mitigation Grant Program
 

     HMTAP                 Hazard Mitigation Technical Assistance Program
 

     NEMIS                 National Emergency Management Information System
 

     PA                    Public Assistance/Public Assistance Grant Program
 

     OIG                   Office of Inspector General 

     SOP                   standard operating procedure 

     TAC                   Technical Assistance Contract 

     USC                   United States Code 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                Foxx & Company audited the Federal Emergency Management
                Agency’s process for closing declared disasters. The audit assessed
                aspects of the process including the agency’s policies, internal controls,
                and practices. It focused on determining whether the agency was
                closing disasters in a timely manner. The audit fieldwork was
                completed in June 2009.

                Improvements are needed to close disasters in a timely manner and to
                reduce administrative costs associated with disasters that should have
                been closed sooner. An agency-wide internal control environment with
                effective leadership and priority did not exist for timely closeout. As a
                result, disasters, programs, and projects stayed open unnecessarily for
                long periods of time. Headquarters and regional management officials
                need to emphasize the need for timely closeouts of disasters. The
                emphasis on closing disasters depends on the interests and priorities of
                individual management officials throughout the Federal Emergency
                Management Agency.

                Delays in closing disasters start at the grantee level and continue through
                final processing at agency headquarters. Several opportunities exist to
                improve the closeout process and expedite the release of unneeded
                obligations resulting in timely disaster closures. The opportunities
                include establishing time standards for the process, developing a system
                to track the progress of closeouts, ensuring that Technical Assistance
                Contracts are reconciled in a timely manner, closing FEMA/State
                Agreements when the state has completed its disaster recovery activities,
                establishing cost-beneficial “floors” for expenditure reconciliations, and
                establishing a system for communicating disaster closeout best practices
                throughout the agency.

                We are making seven recommendations to strengthen the internal
                control environment and improve key aspects of the agency’s process
                for closing disasters. The Federal Emergency Management Agency’s
                response is summarized and evaluated in the body of this report and
                included in its entirety as Appendix D.




                    FEMA’s Disaster Closeout Process Can Be Improved 


                                         Page 1 

Background
             The Federal Emergency Management Agency (FEMA) was
             created in 1979 by Executive Order as an independent agency for
             the centralization of emergency functions. FEMA’s mission is to
             lead the effort to manage federal response and recovery efforts
             following any national incident. On March 1, 2003, FEMA
             became part of the Department of Homeland Security (DHS).

             When natural disasters occur, it is the responsibility of the local
             community and then the state to respond. When their combined
             efforts are not sufficient to respond effectively to the direct results
             of the disaster, the Governor may request federal assistance. The
             Robert T. Stafford Disaster Relief and Emergency Assistance Act
             (Public Law 93-288), as amended (Stafford Act), governs
             assistance. The Stafford Act (42 USC 5122) authorizes the
             President to provide assistance to individuals, state and local
             governments, and certain private nonprofit organizations to help
             them respond to and recover from a disaster. The Stafford Act also
             authorizes funds for hazard mitigation.

             The Code of Federal Regulations (CFR), Chapter 1 Part 13,
             establishes the requirements for FEMA to follow in awarding
             grants to states and other grantees under FEMA/State Agreements.
             The requirements for closeouts are contained in 44 CFR 13.50.
             FEMA and other federal agencies and departments are to follow
             the Standards for Internal Control in the Federal Government
             GAO/AIMD-00-21.3.1 (11/99). These standards state that internal
             controls should provide reasonable assurance that an agency’s
             objectives for the effectiveness and efficiency of operations,
             including the use of the entity’s resources, are achieved.

             After the President declares a disaster, obligations are made in the
             Disaster Relief Fund based on estimated expenses. A disaster can
             have many categories of expenses, including contracts, grants, and
             administrative costs. Major infrastructure repairs (such as those to
             bridges, roads, and public buildings) may require years to
             complete. According to FEMA procedures, disaster closeout
             occurs once the FEMA/State Agreement has been completed and
             closed, and all expenses and grants have been disbursed and
             reconciled.




              FEMA’s Disaster Closeout Process Can Be Improved 


                                   Page 2 

Types of Disaster Declarations

Presidential declarations can include declarations for major
disasters, emergencies, and fires. Each type of declaration has its
own requirements and types of assistance.

Major Disaster Declaration: A major disaster can include any
natural catastrophe (including hurricane, tornado, storm, high
water, wind-driven water, tidal wave, tsunami, earthquake,
volcanic eruption, landslide, mudslide, snowstorm, or drought).
Major disasters can also include any fire, flood, or explosion. If
the President determines that any of these events in any part of the
United States causes damage of sufficient severity and magnitude,
he can authorize major disaster assistance under the Stafford Act to
supplement the efforts and available resources of states, local
governments, and disaster relief organizations in alleviating the
damage, loss, hardship, or suffering caused thereby.

Emergency Declaration: When the President determines that
federal assistance is needed immediately to provide short-term
assistance essential to save lives, to protect property and public
health and safety, or to lessen or avert the threat of a catastrophe,
he can declare an Emergency Declaration. The assistance usually
supplements state and local efforts in providing emergency
services. The amount of emergency assistance is capped at $5
million per single event.

Fire Management Declaration: When FEMA determines that a
fire or fires threaten such destruction as would constitute a major
disaster, assistance—including grants, equipment, supplies, and
personnel—may be authorized to any state for the suppression of
any fire on publicly or privately owned forest or grassland (42
USC 5187).

FEMA’s assistance to grantees (states, territories and tribes) comes
from combinations of grant programs, depending on the type of
disaster and extent of damage. The authorizations and
responsibilities for managing these programs are specified in an
agreement between the grantee and FEMA (44 CFR 206.32). This
FEMA/State Agreement must be completed before funding is
provided for disaster grant programs. The Public Assistance Grant
Program (PA) and the Hazard Mitigation Grant Program (HMGP)
have the longest periods of performance and are the programs most
likely to delay the closure of disasters. Because of their relatively
short period of performance, Individual Assistance programs
typically do not delay the closure of disasters. Consequently, this

 FEMA’s Disaster Closeout Process Can Be Improved

                      Page 3
audit concentrated primarily on the closeout process for the PA and
HMGP.

The PA and HMGP Closeout Processes

The PA and HMGP have a common sequence of closure activities
(see Figure 1). This sequence assumes that the closure of the
disaster was not influenced by the closure of the Individual
Assistance Program (if one was declared for the disaster). As
indicated in Figure 1:

   �	 Individual projects are managed by applicants and each
      project is separately closed by FEMA and the state when all
      of the costs associated with the project have been
      reconciled with supporting documentation.

   �	 Applicants are closed when all of the applicant’s projects are
      closed and the applicant’s administrative allowance expenses
      have been reconciled to supporting documentation.

   �	 When all of the disaster’s applicants are closed, the
      program can be closed. Programs are closed when the
      state’s administrative costs have been reconciled with
      supporting documentation.

   �	 When all declared programs within a disaster are closed,
      the disaster can be closed.

                     Figure 1. Sequence of Closeouts




The applicable FEMA regional office manages the closeout
process until the declared programs are closed and the state has
agreed that the disaster can be closed. For this audit, we
considered a program’s closeout process to be started when the
first project was completed and ready for final inspection.

The FEMA region’s reconciliations of declared programs’ and
grantee administrative costs must be completed before a request to

 FEMA’s Disaster Closeout Process Can Be Improved

                      Page 4
close the FEMA/State Agreement can be sent to FEMA
headquarters. The region reconciles the grantee’s final financial
status reports to FEMA’s financial management system and the
federal payment system.

When FEMA’s Finance Center receives the region’s request for
closure of the disaster, center officials check the reconciliations
and initiate the closure of other costs associated with the disaster,
including the reconciliation and closure of Technical Assistance
Contract (TAC) task orders that were awarded in support of the
disaster recovery effort. When all costs have been reconciled, the
FEMA/State Agreement is closed and the disaster is closed.

Open Disasters as of September 30, 2008

FEMA records show that there were 880 declared disasters with
open FEMA/State Agreements as of September 30, 2008. Of this
total, 744 had unliquidated obligation balances totaling about $16
billion. The remaining 136 disasters were still open even though
they had no unliquidated obligations. The disasters without
unliquidated balances were open pending other than financial
actions, such as appeals or delays caused by other priority work.

Appendix B shows the total declarations by year and the closeouts
of these declarations regardless of the year closed. For example, in
FY 1989, 30 disasters were declared and 29 of the 30 had been
closed as of September 30, 2008.

Appendix C shows the number of open disasters with unliquidated
obligation balances as of September 30, 2008, and the number of
disasters that have been open for 10 or more years.

FEMA’s records also show that the agency has had difficulty
closing disasters. Because of the huge balances of obligations and
unliquidated obligations earmarked for disaster recovery, there has
been a high and continuous level of interest in timely closeouts
from within Congress, the Government Accountability Office, and
the DHS Office of Inspector General.

FEMA management has also been concerned. In the late 1990s,
FEMA’s Director chartered three closeout teams to assist regional
office staff and state emergency management personnel in closing
out funding activities for all past disasters. Other FEMA managers
from headquarters or from within the regional offices occasionally
have emphasized timely closeouts, but these initiatives have often
stalled when the manager leaves or when other priorities arise.

 FEMA’s Disaster Closeout Process Can Be Improved

                      Page 5
Results of Audit 

        FEMA’s closeout processes and reporting system need improvements. First, an
        effective internal control environment that supports timely closeouts of projects,
        programs, contracts, and disasters does not exist, and centralized leadership is
        needed. Second, regional offices responsible for closeout activities do not have
        standard operating procedures (SOPs) for disaster closeouts. Third, delays in
        closing disasters occur at the grantee level and continue through final processing
        at FEMA headquarters. Opportunities are identified to improve the process,
        release funds in a timely manner, and expedite disaster closures.

        Need for Leadership in FEMA’s Disaster Closeout Process

                 FEMA does not have an effective control environment for timely
                 closeouts of projects, programs, contracts, and disasters. FEMA also does
                 not have centralized management leadership for the closeout process.
                 SOPs applicable to disaster programs, supporting offices, and regions for
                 disaster closeouts have been or are being drafted, but they have not been
                 finalized. The emphasis on closing disasters depends on the interests and
                 priorities of management officials throughout FEMA. As a result, many
                 disasters have remained open for long periods.

                 As required by the Federal Managers’ Financial Integrity Act of 1982, 31
                 USC 3512(c), the General Accounting Office (GAO) (now the Government
                 Accountability Office) issued standards for internal control 1 in government.
                 The standards provide the overall framework for establishing and
                 maintaining internal controls for addressing major performance and
                 management challenges. The standards also identify areas of greatest risk
                 of fraud, waste, abuse, and mismanagement. The first standard is the need
                 for a positive control environment, which is the foundation for the other
                 standards established by the GAO. The control environment standard states
                 that “management and employees should establish and maintain an
                 environment throughout the organization that sets a positive and supportive
                 attitude toward internal control and conscientious management.”
                 (GAO/AIMD 00.21.3.1)

                 FEMA’s weak control environment over disaster closeouts allows
                 disasters to stay open for a considerable length of time after the disaster
                 recovery effort has been completed. Obligated funds not needed for the
                 open disasters could be deobligated and made available for use in other
                 disaster relief activities.



1
 The term “internal control” is synonymous with the term “management control” as used in Office of
Management and Budget (OMB) Circular A-123.

                           FEMA’s Disaster Closeout Process Can Be Improved

                                                Page 6
FEMA does not have a centralized process for closing out disasters, and
the leadership resides, for the most part, within each of the 10 regional
offices and the FEMA Finance Center. Our discussions with headquarters
officials indicated a growing interest at the headquarters level in closing
disasters in a timely manner. The headquarters officials with whom we
met relied on the regional offices for disaster closeout.

Leadership is needed at the headquarters level to establish a control
environment that supports timely project, program, and disaster closeouts.
Headquarters management’s commitment to timely closures of disasters
should be visible, positive, and supportive. An effective leader at FEMA
headquarters could provide the necessary support for closing disasters in a
timely manner. The leader could be an individual or an Executive Council
led by an executive officer.

Although new disasters are a priority, FEMA officials agreed that when
management emphasized the disaster closeout process, closeouts
increased, as demonstrated by the establishment of closeout teams in the
late 1990s. However, FEMA management has not consistently
emphasized the need for timely closeouts, and FEMA has not had a good
track record for the timely closeouts of disasters. As of
September 30, 2008, 61 disasters with unliquidated obligation balances
were still open 10 years or more after the disaster was declared. An
additional 131 disasters that were closed as of September 30, 2008, had
been open for 10 years or more from their date of declaration.

FEMA-wide SOPs are needed to provide structure to the process and to
establish clear boundaries for regional officials to ensure grantee
compliance with federal requirements. In the absence of FEMA-wide
SOPs, some regional offices have improvised their own closeout
management processes or tracking systems. Each of the program offices
and some of the other headquarters divisions were in the process of
drafting SOPs for their areas of responsibility. Officials at nearly all
locations told us that SOPs have been “being developed” for some time.
An SOP for closing out projects, programs, and disasters, with recognition
of individual program requirements, would significantly improve the
closeout environment. Management’s creation and endorsement of SOPs
would organizationally improve the closeout process.

There is no established method to encourage best practices for disaster
closeouts throughout FEMA. For example, in our opinion, one region has
developed an impressive system for tracking the status of individual
project and program closeout activities. Another region has developed a
program to train its regional and state officials on financial closeout
requirements. At the time of the audit, FEMA officials were not aware of


        FEMA’s Disaster Closeout Process Can Be Improved

                             Page 7
any plans to institutionalize the tracking system or the training program
FEMA-wide.

To improve disaster closeout efforts, FEMA officials involved in the
closeout process need to be held accountable for their performance.
FEMA does not use disaster closure actions in assessing employee
performance. Annual evaluations could include a rewards and recognition
system that acknowledges exemplary performance of managers at all
levels within FEMA. This could encourage creativity and extra efforts to
close out disasters in view of conflicting priorities and shortages of
experienced staff.

Recommendation:
       We recommend that the Administrator, Federal Emergency
       Management Agency:

       Recommendation #1: Establish a leadership function (i.e., an
       individual, Executive Council lead by an Executive Officer, or a
       separate office) within FEMA headquarters that will:

             a.	 	Serve as FEMA’s point of contact for closeout activities;

             b.	 Be organizationally positioned to have oversight over all
                 closeout actions;

             c.	 	Be responsible for developing standard operating
                  procedures for the closeout process and ensure that the
                  standard procedures are followed unless exceptions are
                  approved because of extraordinary circumstances; and

             d.	 Establish a system for encouraging and recognizing
                 efforts and successes (including best practices) of offices
                 and individuals for timely closeout of disasters.




        FEMA’s Disaster Closeout Process Can Be Improved 


                             Page 8 

     Management Comments and Contractor Analysis
     FEMA concurred with the recommendation. The administrator has
     directed the establishment of a headquarters working group to take
     proactive and appropriate actions to complete the closeout of older
     disasters. Membership in the group includes representatives from the
     Office of Chief Financial Officer, Operations (Response and Recovery),
     Mitigation, Mission Support, Grants Program, and the Office of Chief
     Counsel. The Headquarters group will work closely with the regional
     offices to give priority to closing out open disasters. The tasks of the
     group will include developing incentives for closeouts, sharing best
     practices, developing standard operating procedures and training, and
     holding senior officials accountable for performance goals. The first
     meeting of the group was held November 18, 2009. We consider this
     recommendation resolved because steps are being taken to implement it.
     However, the recommendation will remain open until FEMA provides
     evidence that it is fully implemented.

Opportunities to Improve Closeout Process

     FEMA’s process for closing declared disasters needs improvements.
     Delays in FEMA’s disaster closeout process start at the grantee level and
     continue through final processing at FEMA headquarters. As a result,
     funds obligated for disasters but not needed by FEMA grantees are not
     deobligated and released for other uses. In addition, FEMA has incurred
     unnecessary administrative costs associated with monitoring and oversight
     of disasters that should have been closed.

     According to 44 CFR 13.50(b), within 90 days after the expiration of a
     grant, the grantee must submit financial, performance, and other reports as
     required by the grant. If the grantee does not materially comply with these
     requirements, 44 CFR 13.43 provides remedies for noncompliance. These
     remedies include temporarily withholding cash payments, suspending or
     terminating the current program award, or withholding further awards for
     the program. In addition, FEMA/State Agreements require grantees to
     comply with the provisions of the Stafford Act and FEMA’s regulations in
     44 CFR for the declared disaster assistance programs. The regulations
     include time periods for grantees to submit progress reports and close
     projects and programs.

     There were 744 declared disasters with open FEMA/State Agreements and
     unliquidated obligation balances as of September 30, 2008, as indicated in
     Table 1.




             FEMA’s Disaster Closeout Process Can Be Improved

                                  Page 9
                  Table 1. Disasters as of September 30, 2008
                   Type of Disaster               Number of Disasters
                    Major Disasters                     550
                Emergency Declarations                  103
             Fire Management Declarations                91
               Total Number of Disasters                744

The unliquidated obligations for the 744 disasters were approximately $16
billion, and almost $500 million of the unliquidated obligations were for
disasters that had been declared prior to 1999.

FEMA had several sources of information on the status of disasters and on
the status of programs and projects authorized for those disasters. These
sources included the Disaster Financial Status Report (DFSR), the
National Emergency Management Information System (NEMIS), and the
Financial Information Tool (FIT) report. At the time of our audit, NEMIS
was the automated information system used by grant program officials for
management and oversight of the programs. The DFSR tracks the closeout
status of programs by individual disaster. However, this information
system did not provide alerts to notify regional staff and other FEMA
officials when closeout or other program actions are needed to prevent or
reduce delays in the closure of projects, programs, or disasters. According
to FEMA officials, the processes and timing for inputting status
information are not the same among these information systems. As a
result, comparisons of reports from these systems at a point in time will
show different status information for programs and projects.

We selected 104 open disasters and met with headquarters and regional
officials to determine why the disasters were still open. Our discussions
with the FEMA officials and our review of applicable documentation
identified several reasons for delays in the disaster closeout process.

       Grantee Delays

       The state administrative agency (grantee) and its approved
       applicants control when a project or program is ready to be closed.
       Delays at the grantee level have been caused by staff shortages,
       inexperienced staff, conflicting priorities, and a need for closure
       incentives, resulting in the following:

       �	 Not completing final inspections and reconciliations of
          individual projects;
       �	 Not requesting to close programs after all projects have been
          closed;


        FEMA’s Disaster Closeout Process Can Be Improved

                            Page 10
�	 Not reconciling program and financial requirements, including
   reconciliation of state management costs;
�	 Reluctance to return grant funds to FEMA; and
�	 FEMA-approved extensions beyond the grant performance
   period.

Regional officials said that delays of a year or more have
frequently been experienced at the grantee level. These delays
constitute noncompliance with federal requirements.

Regional Office Delays

Regional office officials said that progress in closing projects and
programs is not tracked, and they cannot estimate the delays that
have occurred on specific closeout actions. The officials said that
the volume, frequency, and types of newly declared disasters can
significantly influence the progress made in closing older disasters.
Delays have also occurred for the following reasons:

�	 A perceived lack of authority or an unwillingness within
   FEMA to compel states to comply with federal requirements;
�	 A perception that headquarters will not support aggressive
   actions with noncompliant grantees because the action might
   not be politically acceptable;
�	 Staff pulled off closeout work to respond to new disasters;
�	 Shortage of staff experienced in closing out projects, programs,
   or disasters;
�	 Lack of incentives for FEMA staff to make closeout work a
   priority; and
�	 Difficulties in reconciling state management cost expenditures.

In several instances, regional officials have taken initiatives to
improve closeout practices and reduce the time to close disaster
programs and FEMA/State Agreements. These efforts included
the following:

�	 Assisted grantee staff in completing requirements, either
   through FEMA officials visiting state offices or colocating
   FEMA staff at state offices;
�	 Developed tracking systems to identify when certain required
   program documents should be received from grantees and then
   followed up with grantees if the documents were not received;
�	 Developed performance measures for closing disaster grant
   programs and FEMA/State Agreements; and


 FEMA’s Disaster Closeout Process Can Be Improved

                     Page 11
�	 Documented and flowcharted the closeout process for regional
   staff to use as a reference guide.

Because FEMA regional staff perceives that they do not have the
authority to compel states to comply with federal requirements,
they generally are not using the enforcement provisions in
44 CFR 13.43. Regional officials said withholding future funding
or deobligating funds for existing grants is politically
unacceptable.

However, in one region a grantee was not closing programs, and
FEMA regional officials told the grantee that, until it closed the
programs, FEMA would not provide reimbursement for incurred
state management costs on new disasters. According to the
regional officials, the office also blocked a grantee’s drawdowns
from the federal account because the grantee had not provided
required progress reports. At the time of our audit, the impacts of
these actions were pending final resolution.

In another region, FEMA regional staff colocated with state
officials to help the state fulfill closeout efforts. According to
regional officials, this practice has produced favorable results. In
another case, regional staff offered assistance to a state but the
state refused the offer. Some regions, however, do not have staff
available to provide such assistance.

Headquarters Delays

FEMA Finance Center and other headquarters officials attributed
delays in closeouts at the headquarters level to the following:

�	 The need for more staff at the FEMA Finance Center;
�	 A backlog in the reconciliation of Technical Assistance
   Contracts (TAC) task orders , and
�	 The difficulty in reconciling disaster financial activities to the
   exact amount.

Staff Shortages: FEMA officials said the amount of work that
must be done at the FEMA Finance Center has increased and staff
shortages have led to priorities that do not always favor timely
closeouts.

Task Order Reconciliations Backlog: FEMA officials at
headquarters and in the regional offices cited the backlog of task
order reconciliations as the most frequent cause of delays in the
disaster closeout process.

 FEMA’s Disaster Closeout Process Can Be Improved

                     Page 12
PA/TAC task orders were the only contracts that were causing
delays in the closure of disasters at the time of our audit. FEMA
procedures require that task orders for technical assistance be
reconciled prior to the closure of the FEMA/State Agreement.
Task orders are awarded under the Hazard Mitigation Technical
Assistance Program (HMTAP) and PA’s Technical Assistance
Contracts. Although HMTAP reconciliations were also
backlogged a few years ago, an aggressive effort by Mitigation
headquarters officials eliminated the backlog.

As of April 30, 2009, 74 disasters were ready for closeout pending
the reconciliation of task orders. Those disasters had been
declared as early as August 1999. Although headquarters PA
officials were trying to expedite the reconciliation process, FEMA
officials projected that the PA/TAC task order reconciliations
would not be current until sometime in 2010.

TAC task orders, which are not part of the state’s recovery efforts,
are contracts awarded directly by FEMA to support disaster
recovery and are not paid from grant program funds awarded to the
states. Consequently, the reconciliation and closure of TACs
should not be a factor in determining when a FEMA/State
Agreement is closed. A disaster should be closed when the state’s
recovery effort has been completed and the funding for the
declared disaster programs has been fully reconciled.

Exact Amount Reconciliations: FEMA reconciles all disaster
financial activities to the last dollar. Headquarters and regional
office officials with whom we met endorsed the establishment of
“floors” for the various closeout reconciliations activities; that is,
the reconciliations would be considered reconciled at a dollar value
greater than zero. The floors could be different for various types
of activities. For example, the floor for a grant program could be
higher than the floor for administrative allowances. Office of
Management Budget Circular A-133 for audits of federal programs
uses a threshold of $10,000 for reporting questioned costs in Single
Audits. The Circular A-133 threshold could be considered in
establishing the “floors” for closeout reconciliations.

Some disasters are still open because very small differences remain
unreconciled. We observed many remaining balances of less than
$100 that had been awaiting reconciliation for several years. Of
the 744 open disasters, 45 had less than $10 remaining to be
reconciled. The reconciliation of disaster activities to the exact
amount, particularly when the outstanding amounts are relatively
small, is not a cost-effective use of FEMA resources.

 FEMA’s Disaster Closeout Process Can Be Improved

                     Page 13
      As a result of the delays in disaster closeouts at the grantee level,
      within regional offices, and at FEMA headquarters, FEMA
      continues to incur costs associated with monitoring open disasters
      that should have been closed long ago. In addition, the unliquidated
      obligation balances include funds that should be deobligated.
      Deobligation would make the unspent funds available for other uses.

Recommendations:

We recommend that the Administrator, Federal Emergency Management
Agency:

      Recommendation #2: Support regional office initiatives
      compelling grantee compliance with the FEMA/State Agreement
      terms and disaster program requirements.

      Recommendation #3: Establish time standards for completion of
      key steps in the closeout process, install alerts in the appropriate
      management information systems to promote proactive action if
      delays begin to occur, and establish a system for tracking the
      progress of closeout actions.

      Recommendation #4: Revise FEMA closeout procedures to
      exclude the reconciliation of Technical Assistance Contract task
      orders and allow FEMA/State Agreements to be closed when the
      state’s recovery effort has been completed and the funding for the
      declared disaster programs has been fully reconciled.

      Recommendation #5: Establish policies and procedures that limit
      reconciliations to a level that is cost-beneficial, such as $10,000 or
      another amount acceptable to FEMA, rather than reconciling
      amounts to zero.

      Recommendation #6: Develop a system to communicate and use
      closeout best practices across FEMA regional offices, including
      colocating staff with states when appropriate, considering the
      frequency and types of disasters experienced in the region.

      Recommendation #7: Consider the re-establishment of closeout
      teams dedicated to expediting disaster closeouts.




       FEMA’s Disaster Closeout Process Can Be Improved

                           Page 14
Management Comments and Contractor Analysis
Appendix D contains a copy of the written comments we received from the
FEMA Director, Office of Policy and Program Analysis. FEMA stated that
it will provide a detailed corrective action plan for the implementation of
each of the recommendations with its 90-day letter following the issuance of
the final report. Therefore, these recommendations will remain open until
the corrective action plan is received.




        FEMA’s Disaster Closeout Process Can Be Improved 


                            Page 15 

Appendix A
Purpose, Scope, and Methodology


                   Foxx & Company audited the Federal Emergency Management
                   Agency’s process for closing declared disasters. The objective of
                   the audit was to assess aspects of the process, including the
                   agency’s policies, internal controls, and practices. The audit
                   focused on determining whether FEMA was closing disasters in a
                   timely manner.

                   The scope of the audit included major disaster declarations,
                   emergency declarations, and fire management declarations. The
                   cutoff date for the audit was September 30, 2008.

                   Sample Selection: To assess FEMA’s policies, internal controls,
                   and practices for closing out disasters, we selected 104 open
                   disasters and met with headquarters and regional office officials to
                   determine why the disasters were still open. Foxx & Company
                   initially selected a sample of 54 open disasters for inclusion in the
                   audit from the September 17, 2008, FEMA Financial Information
                   Tool report. FEMA’s Financial Information Tool report listed 678
                   open disasters. Foxx & Company used criteria approved by the
                   Office of Inspector General to select the sample. The sample
                   included:

                           Major disasters                             39     

                           Emergency declarations                      10 

                           Fire management declarations                 5

                                                                       54


                   The following criteria were used to select the sample:

                      �    Date of declaration – 500-plus days since declaration
                      �    Estimated damage – Highest amounts preferred
                               o Amount allocated
                               o Amount obligated
                               o Unobligated allocations
                               o Unliquidated obligations
                      �    Grantee – Select more than one state per regional office

                   After visiting FEMA headquarters and the 10 regional offices, the
                   Foxx team decided to extend the sample of 54 by selecting the 5
                   oldest open disasters from each region. Each region provided
                   explanations for why these five disasters were still open as of
                   September 30, 2008.




                    FEMA’s Disaster Closeout Process Can Be Improved

                                        Page 16
Appendix A
Purpose, Scope, and Methodology


                   An advance request for key documentation supporting FEMA’s
                   closeout process for disasters and disaster program declarations
                   was made before the entrance conference but after the OIG
                   announced the audit to FEMA. The initial work included
                   interviews with key FEMA headquarters and FEMA Finance
                   Center officials in Washington, DC, and Berryville, VA,
                   respectively. Documentation supporting the closeout policies,
                   practices, and process was requested, as appropriate, from the
                   officials interviewed.

                   Following the initial headquarters work, the team visited each
                   regional office to discuss and obtain documentation concerning the
                   sample disasters and related programs. The visits were critical to
                   the identification of why disasters were not being closed in a
                   timely manner.

                   The regional office visits identified additional information that had
                   to be obtained from FEMA headquarters and Finance Center
                   officials. Return visits were made to these locations to obtain the
                   additional information. The fieldwork was completed when the
                   draft report was presented to OIG officials for review and approval
                   in July 2009. All required steps in the DHS/OIG reporting process
                   were performed after the fieldwork was completed.

                   The performance audit was conducted in accordance with
                   Government Auditing Standards, July 2007 Revision. The
                   standards require that we plan and perform the audit to obtain
                   sufficient, appropriate evidence to provide a reasonable basis for
                   our findings and conclusions based on our audit objectives. We
                   believe that the evidence obtained supports the findings and
                   conclusions based on our audit objectives.




                    FEMA’s Disaster Closeout Process Can Be Improved 


                                        Page 17 

Appendix B
Declarations and Closures, FY 1989 Through FY 2008


                                Table B-1. Declarations and Closures,
 

                                     FY 1989 Through FY 2008 



Fiscal Year   Declarations     Closures     Open                Fiscal Year   Declarations   Closures   Open

   1989           30              29            1                  1999           106          74        32
   1990           39              37            2                  2000           103          73        30
   1991           41              41            0                  2001           103          51        52
   1992           55              46            9                  2002           127          80        47
   1993           65              61            4                  2003           115          40        75
   1994           57              53            4                  2004           129          34        95
   1995           35              31            4                  2005           139          42        97
   1996           149            141            8                  2006           152          33       119
   1997           58              43         15                    2007           133           3       130
   1998           124            101         23                    2008           141           8       133

                                                                   Total         1901         1021      880



                             Table B-1 Information in Line-Chart Format

               160
                                 Declarations
                                 Closures
               140

               120

               100

                80

                60

                40

                20

                 0
                        89 90 91 92 93 94 95 96 97 98 99 0 1 2 3 4 5 6 7 8




                               FEMA’s Disaster Closeout Process Can Be Improved 


                                                    Page 18 

Appendix C
Disasters With Obligation Balances at September 30, 2008


                            Table C-1. Open as of September 30, 2008

                        Declarations                Number        Unliquidated Balance
                                                                       (millions)
                       Major Disaster                 550              $ 15,784.0
                         Emergency                    103              $    440.5
                      Fire Management                  91              $     23.9
                               Total                  744 2            $ 16,248.4


                                 Table C-2. Open 10 Years or More

                        Declarations                Number        Unliquidated Balance
                                                                       (millions)
                       Major Disaster                   58               $ 497.2
                         Emergency                      3                $    .4
                      Fire Management                    0               $     0
                               Total                    61               $ 497.6




2
    An additional 136 disasters without unliquidated obligation balances were open as of September 30, 2008. 


                              FEMA’s Disaster Closeout Process Can Be Improved 


                                                    Page 19 

Appendix D
Management Comments on the Draft Report




                                                                                  l~"'I~_efll_"'Stno...,·
                                                                                  JOO t Srrn<. S\\
                                                                                  "'--'-" IX.' ;"O.I7!




                                                                      t~FEMA
                                                                        ,~.,

                                             EC 1 1 alJ9


         MEMORANDUM FOR:                 Man100acld
                                         Deputy In~pa-tor ~l
                                         Offite of Emergency Management Oversight
                                         Office of 111Spct:tor Gcncrol

         FROM:                           David 1. Kaufman    t1H _______
                                         Director           I'.....
                                         Office of Policy and Progntm Al\I1lysis

         SUBJECT:                        Comments on OIG Dnlft Report, Opportllnities 10 Improl'e
                                         FEMA 's Disaster CIQseorlf Process

         Thank you for the opportunity to l'e\'iew and comment on the Office of Inspector
         General's (OIG's) subject dnlft audit report. Tl'Chnical comments h:l\'e been provided
         under separate CO\'ef. As the Fedt."r.l.l Emergency Management Agency (FEMA) works
         toward refining its programs, thc alG's indcpcndt."t analysis of program pcrfonnancc
         greatly benefits our ability to continuously improve our aeti\'itics.

          In recognition of some of the issucs raised during your audit, and as part of our
          continuing efforts to improve FEMA's administrative cfficicney. the Administrator has
          directed the cstablishment of a headquarters working group to tuke proactive lind
          approprimc actions to completc the c1ost."Out of older disasters. Led by the Office of the
          Chief Financial Officer. membership on this working group includes represent:lli\'cs from
          Operations (Response and Recovery), Mitigaliun. Mission Support, Grants Programs and
          the Office of Chief Counsel. They will bc responsible for insuring coordinall'd action and
          facilitating the rcsolulion of problems. The Headquarters working group will work
          closely with lhe regional offices to give priority 10 closing 01,11 open disasters.

          Among the tasks identililxl for the 1V0rk group arc dt."Veloping inecntivcslcontrols to
          t."sure faster diSllSter c1ost:out within e.~isting rcgUllitiollS. shnring best
          prJeticcslmethodology lImong regions. developing standard opcrJting procedures llnd
          training and holding senior officials accountable for J'l.'Tfonnance b'Oals. Closeout b'Oals
          will be identified and progress will be monitored for each region.

          The first mooing of the working group took plilce November 18. 2009. following a
          presentation 10 the senior leadership on Octobt.'T 9. 2009 during which the Administrator
          CJl.presst:d his support for this effort and his expectation that ffil-asurab1c progress would
          be made.




                                                                                  ....·... r~II"'4"




                          FEMA’s Disaster Closeout Process Can Be Improved 


                                                     Page 20 

Appendix D
Management Comments on the Draft Report




         Page 2

         FEMA ooncu.rs with the draft TCpOTt'S seven rec:orrunendations. In our 9O-day letter
         followina the issuance of your final report. we will provide a detailed ooJTeCtive action
         plan for implementation of each of the report's seven recommendations.

         Thank you again for the opportunity to oomment on this draft report and we look forward
         to workina with you on other- issues as we both strive to improve FEMA.




                         FEMA’s Disaster Closeout Process Can Be Improved 


                                                 Page 21 

Appendix E
Distribution



               Department of Homeland Security

               Secretary
               Deputy Secretary
               Chief of Staff for Operations
               Chief of Staff for Policy
               Deputy Chiefs of Staff
               General Counsel
               Executive Secretariat
               Director, GAO/OIG Liaison Office
               Assistant Secretary for Office of Policy
               Assistant Secretary for Office of Public Affairs
               Assistant Secretary for Office of Legislative Affairs

               Federal Emergency Management Agency

               Administrator
               Chief of Staff
               Chief Financial Officer
               Director, Office of Management
               FEMA Audit Liaison (Project Code DC7A03)
               Office of Management Audit Liaison

               Office of Management and Budget

               Chief, Homeland Security Branch
               DHS OIG Budget Examiner

               Congress

               Congressional Oversight and Appropriations Committees, as appropriate




                       FEMA’s Disaster Closeout Process Can Be Improved 


                                           Page 22 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
